Audit
Report
  ACQUISITION OF THE VERTICAL TAKE-OFF AND LANDING TACTICAL
                   UNMANNED AERIAL VEHICLE


Report No. D-2002-026                        December 14, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at: www.dodig.osd.mil or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronym
VTUAV        Vertical take-off and landing Tactical Unmanned Aerial Vehicle
                      Office of the Inspector General, DoD
Report No. D2002-026                                            December 14, 2001
  (Project No. D2001AE-0080)

         Acquisition of the Vertical Take-off and Landing Tactical
                         Unmanned Aerial Vehicle

                               Executive Summary

Introduction. The Vertical Take-off and Landing Tactical Unmanned Aerial Vehicle
system will operate from ships and land to provide reconnaissance, surveillance, and
target acquisition and to relay communications for littoral operations of the Navy and
Marine Corps. The Vertical Take-off and Landing Tactical Unmanned Aerial Vehicle
system will collect and pass information to provide the commander with an extended
battlespace situational awareness and information superiority, contributing to full-
dimensional protection of the force and precision engagement of the enemy. The
program office estimates that 23 systems will cost $171 million for research,
development, test, and evaluation and $873 million for procurement. The full-rate
production decision is scheduled for January 2004.

Objectives. The objective was to evaluate the overall management of the Vertical
Take-off and Landing Tactical Unmanned Aerial Vehicle. Because the program was in
the engineering and manufacturing development phase, we determined whether
management was cost-effectively developing and readying the system for the full-rate
production phase of the acquisition process. In addition, we evaluated the management
control program as it related to the audit objective.

Results. Overall, the Vertical Take-off and Landing Tactical Unmanned Aerial
Vehicle Program Office was cost-effectively developing and readying the program for
the full-rate production phase. However, three areas warrant management attention
before the program enters full-rate production.

     •   The Vertical Take-off and Landing Tactical Unmanned Aerial Vehicle
         Program Manager developed a schedule-driven acquisition strategy rather than
         an event-driven acquisition strategy to achieve a directed initial operational
         capability date of September 2003 for the system. As a result, the program
         manager is proceeding with an acquisition strategy that includes high-risk
         items, which may not be resolved before the scheduled production milestone
         decision and may require the program manager to add time and funds for
         research, development, test, and evaluation to the budget to complete system
         development (finding A).

     •   The Navy had not justified and documented the number of Vertical Take-off
         and Landing Tactical Unmanned Aerial Vehicle systems that were stated as
         required. Until the Navy validates and documents the procurement
         requirements, the Navy will not know whether it will be able to fully fund,
         through programming and budgeting, the Vertical Take-off and Landing
         Tactical Unmanned Aerial Vehicle program in the Future Years Defense
         Program (finding B).
     •   The Vertical Take-off and Landing Tactical Unmanned Aerial Vehicle
         Program Manager proposed, and the Assistant Secretary of the Navy
         (Research, Development and Acquisition) approved, exit criteria that were
         based on minimum program accomplishments specified for each acquisition
         phase rather than on program-specific accomplishments. As a result, the
         milestone decision authority will not be able to use program-specific exit
         criteria in deciding whether the VTUAV should progress within the
         engineering and manufacturing development phase or continue to the
         production phase of the acquisition process (finding C).

Appendix A summarizes the review of the management control program.

Summary of Recommendations. We recommend that the Deputy Chief of Naval
Operations (Warfare Requirements and Programs) submit a revised initial operational
capability date to the Joint Requirements Oversight Council for validation to
accommodate an event-driven acquisition strategy. Based on a revised initial
operational capability date, we recommend that the Vertical Take-off and Landing
Tactical Unmanned Aerial Vehicle Program Manager establish an event-driven
acquisition strategy to reduce program risk. We also recommend that the Deputy Chief
of Naval Operations (Warfare Requirements and Programs) justify and document the
number of Vertical Take-off and Landing Tactical Unmanned Aerial Vehicle systems
that are required before the full-rate production decision. We also recommend that the
Assistant Secretary of the Navy (Research, Development and Acquisition) enforce the
requirement that the program manager propose program-specific exit criteria for the
remaining acquisition decision points.

Management Comments. Management did not comment on the draft report issued on
October 5, 2001; therefore, we request that the Assistant Secretary of the Navy
(Research, Development and Acquisition), the Deputy Chief of Naval Operations
(Warfare Requirements and Programs), and the Program Manager, Vertical Take-off
and Landing Tactical Unmanned Aerial Vehicle, provide comments on this report by
January 14, 2002.




                                          ii
Table of Contents

Executive Summary                               i

Introduction
     Background                                1
     Objectives                                2

Findings
     A. Schedule-Driven Acquisition             4
     B. Requirements Determination             12
     C. Program-Specific Exit Criteria         17

Appendixes
     A. Audit Process
         Scope                                 20
         Methodology                           20
         Management Control Program Review     21
         Prior Coverage                        21
     B. Definitions of Technical Terms         22
     C. Acquisition Phases                     24
     D. Technology Readiness Levels            26
     E. Carrier Groups and Amphibious Groups   28
     F. Report Distribution                    29
Source: Naval Air System Command, Unmanned Aerial Vehicle Program Office


Key Components of the Vertical Take-off and Landing Unmanned Aerial Vehicle
Background
           The changes in strategy in the post-cold war world shifted the operational focus
           of the Navy and Marine Corps from the open oceans to littoral regions1, which
           increased the importance of providing those forces with an integrated
           reconnaissance asset. A variety of unmanned aerial vehicles has been developed
           and evaluated by the Services.

           During Operation Desert Storm, the Pioneer Unmanned Aerial Vehicle
           (Pioneer) was successful in providing real-time data to the battleship and
           increased the effectiveness of its guns. However, the Pioneer also showed the
           limitations of trying to adapt a system designed to use a runway to the
           constrained shipboard environment.

           Since 1990, the Navy has supported the demonstration of different vertical take-
           off and landing unmanned aerial vehicles to find a system better suited to the
           naval environment. New, unmanned aerial vehicle concepts that are in
           development include miniature, long endurance, and high altitude systems;
           however, the Vertical Take-off and Landing Tactical Unmanned Aerial Vehicle
           (VTUAV) is the only system in development that is intended to meet the unique
           operational requirements of both the Navy and the Marine Corps.

           The Navy and Marine Corps will use the VTUAV, deployed from ships and
           land, to provide reconnaissance, surveillance, and target acquisition and to relay
           communications for littoral operations. The VTUAV system will collect and
           pass information to provide the commander with an extended battlespace
           situational awareness and information superiority, contributing to full-
           dimensional protection of the force and precision engagement of the enemy.
           The VTUAV consists of the following three primary components:

               •    air vehicles capable of carrying various mission payloads,

               •    ground control stations, and

               •    remote data terminals.

           The Navy will integrate the components through the Tactical Control System
           software.

           On February 8, 2000, the Assistant Secretary of the Navy (Research,
           Development and Acquisition), the milestone decision authority, approved the
           VTUAV program to enter the engineering and manufacturing development
           phase of the acquisition process. The program office estimates that 23 systems
           will cost $171 million for research, development, test, and evaluation and
           $873 million for procurement. The initial operating capability is scheduled for
           September 2003 and the full-rate production decision for January 2004. The
           VTUAV is a major system, an Acquisition Category II program. Definitions of
           technical terms are included at Appendix B.

1
    The coastal region or shore zone between high and low watermarks.



                                                     1
Full-Funding Policy
        DoD Regulation 5000.2-R, “Mandatory Procedures for Major Defense
        Acquisition Programs (MDAPs) and Major Automated Information System
        (MAIS) Acquisition Programs,” Change 4, May 11, 19992, and Secretary of the
        Navy Instruction 5000.2B, “Implementation of Mandatory Procedures for Major
        and Non-Major Defense Acquisition Programs and Major and non-Major
        Information Technology Acquisition Programs,” December 6, 1996, define the
        requirements for full funding of acquisition programs at program initiation. The
        DoD Regulation and Navy Instruction both require the milestone decision
        authority to assess affordability at each milestone decision point, beginning with
        program initiation. Further, the Regulation and Instruction require that the
        milestone decision authority not approve an acquisition program to proceed
        beyond program initiation unless sufficient resources, including manpower, are
        programmed in the most recently approved Future Years Defense Program, or
        will be programmed in the next Program Objectives Memorandum, Budget
        Estimate Submission, or President’s Budget. Schedule delays and uncertain
        requirements could affect the amount and the schedule of programmed fund
        distribution.

Objectives
        The audit objective was to evaluate the overall management of the VTUAV.
        Because the program was in the engineering and manufacturing development
        phase, we determined whether management was cost-effectively developing and
        readying the system for the full-rate production phase of the acquisition process.
        In addition, we evaluated the management control program as it related to our
        audit objectives. We coordinated our efforts with the General Accounting
        Office, which provided information based on its previous work with the
        VTUAV Program Office. See Appendix A for a discussion of the audit scope
        and methodology, the review of the management control program, and prior
        coverage related to the audit objectives.

Vertical Take-off and Landing Unmanned Aerial Vehicle
  Program Generally Well Managed
        Overall, the program office was cost-effectively developing and readying the
        program for the full-rate production phase. Following are specific examples of
        the approach used by the VTUAV Program Office.

            •    The program office performed research and testing to determine how the
                 Pioneer could be converted to use a new data link and data link control
                 processor as a risk mitigation effort for the VTUAV program. The
2
 The VTUAV program is subject to the May 11, 1999, version of DoD Regulation 5000.2-R because the
program entered the engineering and manufacturing stage of the acquisition process before the June 10,
2001, revision; however, the June 10, 2001, revision contains the same full-funding requirements for
acquisition programs.



                                                  2
       Pioneer conversion may be necessary because, after the new Navy-wide
       communication system is initiated in FY 2005, the radio frequency used
       by the Pioneer will no longer be available. To operate the Pioneer after
       FY 2005, the Navy would have to upgrade it with a new data link and
       data link control processor that operate on a different radio frequency.
       Accordingly, the program office performed the necessary research and
       testing to identify how the Pioneer could be upgraded to operate on a
       new radio frequency and provided the research results to the Army for
       use in developing the Tactical Unmanned Aerial Vehicle.

   •   The program office used integrated product teams to ensure open
       communication between the contractors and DoD organizations. The
       integrated product teams, as evidenced in meeting minutes, were
       effective forums for sharing information and identifying and tracking
       issues. The integrated product team members included representatives
       from various DoD organizations as well as contractors and
       subcontractors. VTUAV issues addressed at those meetings included
       risk management, integration of the Tactical Control System, air vehicle
       design, payload requirements, and strategic planning.

   •   The prime contractor provided the program office with real-time access
       to program documentation and an open forum for discussions through an
       Internet-based program. The Internet-based program linked the prime
       contractor to the program office, the Naval Sea Systems Command, and
       the subcontractors. Through the real-time program, the prime contractor
       tracked risk items, design documentation, test results, and earned value
       management documentation.

Additionally, we determined that the program office was complying with DoD
and Navy regulations in the areas of earned value management, contracts
management, the development of a programmatic environmental, safety and
health evaluation, implementation of the DoD environmental management
process, and estimation of life-cycle costs. However, three areas warrant
additional management action before the program enters full-rate production. A
discussion of the associated findings follows.




                                   3
            A. Schedule-Driven Acquisition
            The program manager established a schedule-driven acquisition strategy,
            rather than an event-driven acquisition strategy that minimized risks,
            because he wanted to achieve an initial operational capability date of the
            fourth quarter of FY 2003, as directed by the Deputy Chief of Naval
            Operations (Warfare Requirements and Programs) and validated by the
            Joint Requirements Oversight Council. As a result, the program
            manager is proceeding with an acquisition strategy that includes high-risk
            areas, which may not be resolved before the scheduled production
            milestone decision. In addition, those high-risk areas may require the
            program manager to add time and funds for research, development, test,
            and evaluation to the budget to complete the VTUAV system
            development.


Phases in an Event-Driven Acquisition Strategy
     DoD Regulation 5000.2-R requires every acquisition strategy to be event driven
     and to explicitly link program decisions to demonstrated accomplishments in
     development, testing, initial production, and life-cycle support. Accordingly,
     the Regulation identifies the acquisition phases and events that must be
     completed before the program progresses to the next phase of the acquisition
     process. The acquisition phases are:

        •   Phase 0, Concept Exploration,

        •   Phase I, Program Definition and Risk Reduction,

        •   Phase II, Engineering and Manufacturing Development, and

        •   Phase III, Production, Fielding/Deployment, and Operational Support.

     Appendix C further defines the acquisition phases of the acquisition process.

Program Office Acquisition Strategy
     The Assistant Secretary of the Navy (Research, Development and Acquisition)
     approved the VTUAV acquisition strategy in July 1999. The VTUAV
     acquisition strategy states that the accelerated production schedule would require
     a great deal of simultaneous and interdependent actions to meet the initial
     operating capability date in the fourth quarter of FY 2003, and would require an
     engineering and manufacturing development decision in the second quarter of
     FY 2000. Accordingly, the VTUAV Program Manager tailored the acquisition
     strategy, including omitting acquisition phases, to meet the accelerated
     production schedule as follows.

     Phase 0 and Phase I. DoD Regulation 5000.2-R states that the number of
     phases and decision points in the acquisition process can be tailored to meet the
     specific needs of individual program managers if they are based on an objective


                                         4
assessment of program risks and the urgency of the user needs. The VTUAV
Program Manager tailored the acquisition strategy to omit Phases 0 and I, the
phases usually dedicated to reducing program risk, and stated that previous
unmanned aerial vehicle programs and technical demonstrations proved the
concept of a VTUAV through testing; however, an acceptable technology
readiness level had not been demonstrated in previous unmanned aerial vehicle
programs and technical demonstrations to warrant beginning the VTUAV
program in the engineering and manufacturing development phase of the
acquisition process.

        Technology Readiness Levels. The General Accounting Office report,
GAO/NSIAD-99-162, “Best Practices, Better Management of Technology
Development Can Improve Weapon System Outcomes,” July 1999, addressed
acceptable technology readiness levels that systems needed to demonstrate
before they can progress from acquisition Phase 0 through Phase III. The
Government Accounting Office reviewed commercial and DoD experiences in
incorporating 23 different technologies into new product and weapon system
designs. The review showed that the most successful technologies were
managed by science and technology organizations until they reached high
technology readiness levels. (General Accounting Office definitions of
technology readiness levels are shown in Appendix D.) Technology readiness
levels outline critical steps of technology development that should be
accomplished before that technology is considered mature enough to be inserted
into a program. The General Accounting Office reported that a review of DoD
and commercial technology development cases indicated that programs
demonstrating a high level of maturity before allowing new technologies into
product development put them in a better position to succeed. Simply put, the
more mature a technology is at the start of the program, the more likely the
program will succeed in meeting its objectives. Technologies that were included
in a product development before they were mature later contributed to cost
increases and schedule delays in those products. The report states that the DoD
process for selecting program candidates did not include adequate criteria for
assessing the maturity of proposed technology, which resulted in the approval of
projects that included immature technologies.

In response to the General Accounting Office report, the Secretary of Defense
agreed that technology readiness levels were necessary to assist decisionmakers
in determining when and where to insert new technologies into weapon system
programs. The Secretary also stated that weapon system managers should
determine that technology has matured to a technology readiness level seven
before insertion occurs and that there should be an established point for the
transition of technologies. The Secretary supplemented the milestone review
process with additional guidance in the June 2001 revision to DoD
Regulation 5000.2-R. The guidance states that the program manager shall
identify critical technologies through the work breakdown structure and perform
technology readiness assessments before the milestone decision points for
engineering and manufacturing development and production, fielding,
deployment, and operational support. The Regulation includes the technology
readiness levels as defined by the General Accounting Office.

       Readiness Level of the Tactical Control System. One of the critical
technologies of the VTUAV system is the Tactical Control System, which will
process and disseminate the information collected by the VTUAV. The Tactical


                                   5
Control System technology should have matured to technology readiness level
seven before being inserted as part of the VTUAV program; however, because
the Tactical Control System was still in the development process, it had not
demonstrated the critical steps needed to meet technology readiness level seven.

The VTUAV acquisition strategy stated that the Navy would reduce risk by first
integrating the Tactical Control System with the Pioneer—the predecessor of the
VTUAV—before integrating it with the VTUAV. However, because of
monetary constraints, the Navy did not complete the integration of the Tactical
Control System with the Pioneer. The Navy performed research and testing to
determine what needed to be done to make the integration a success, but decided
not to spend the estimated $8 million required for the integration effort because
the VTUAV was scheduled to replace the Pioneer before it became obsolete.

        Previous Unmanned Aerial Vehicles. Since 1988, the Navy
participated in two predecessor programs in an effort to demonstrate the concept
of using unmanned aerial vehicles to satisfy aerial mission requirements. The
results of those development efforts follow.

                Hunter Short-Range Unmanned Aerial Vehicle. In 1988, the
DoD Joint Project Office initiated the Hunter Short-Range Unmanned Aerial
Vehicle (Hunter) program to provide the Army, Navy, and Marine Corps with
near-real-time, day and night reconnaissance, surveillance, and target
acquisition capabilities. In 1992, limited user testing of the Hunter revealed
operational performance deficiencies that included inadequate range, unreliable
data links, and the inability to meet specified transport requirements.
Notwithstanding those deficiencies, the Defense Acquisition Board granted a
low-rate initial production contract for seven Hunter systems in January 1993.
Upon delivery of the low-rate initial production systems, beginning in May
1994, Government acceptance tests identified deficiencies with system software,
data links, and engines. The deficiencies occurred because DoD did not allow
enough time to integrate nondevelopmental components or to perform the
analysis required to form a functional logistical support system. The DoD Joint
Project Office accepted the Hunter systems in April 1995 and the Navy
proceeded with shipboard development and integration with the Hunter despite
numerous crashes and the subsequent grounding of the system. In October
1995, the Joint Requirements Oversight Council recommended the termination
of the Hunter program. On January 31, 1996, the Defense Acquisition
Executive canceled further procurement of the Hunter. At the time of the
program’s cancellation, 7 low-rate initial production systems, which included
56 air vehicles, had been delivered. Of these air vehicles, 20 had crashed.

               Outrider Tactical Unmanned Aerial Vehicle. In December
1995, the DoD Joint Project Office initiated an Advanced Concept Technology
Demonstration to find a replacement for the Hunter system. In May 1996, the
Naval Air Systems Command, the contracting agent for the DoD Joint Project
Office, awarded the contract for the development of the Outrider Unmanned
Aerial Vehicle system. The 2-year contract required the delivery of six
Outrider systems by March 1998; however, numerous development delays and
setbacks reduced the 12 months originally planned for testing to 2 months.
Because of the reduced time for testing, the testers were unable to demonstrate
that the Outrider system met many of the critical requirements to warrant further
production. In addition, the Navy concluded that the technical maturity level of


                                    6
the engine was not advanced enough to meet the Navy’s heavy fuel and short
runway take-off requirements. Based on the Outrider’s inability to meet those
specifications, the Navy determined that it would not accept the Outrider as its
Tactical Unmanned Aerial Vehicle system.

        Technical Demonstrations. During the prototype technical
demonstrations that the Navy conducted for the VTUAV program, the Navy
required the contractors to demonstrate that their prototypes were capable of
vertical take-off and landing. The technical demonstrations did not include
extensive integration of the prototypes with commercial-off-the-shelf items and
Tactical Control System software, although those integration efforts were
needed to show that the VTUAV technology was at an acceptable maturity level
and to prove that that system was ready to enter the engineering and
manufacturing development phase of the acquisition process. Despite the
limited capabilities of the technical demonstrations and the immaturity of the
system, the Assistant Secretary of the Navy (Research, Development and
Acquisition) approved the VTUAV program for entry into the engineering and
manufacturing development phase.

Phase II. By allowing the program to proceed into the engineering and
manufacturing development phase, the VTUAV Program Manager had to
manage his program around the resolution of high-risk areas that affected the
development of the VTUAV. As of September 2001, the four high-risk areas
were:

   •   Tactical Control System availability and integration,

   •   air vehicle weight,

   •   data link control processor software development, and

   •   vehicle management computer software development.

        Tactical Control System Availability and Integration. The Navy
awarded a separate contract for the development of the Tactical Control System.
The Tactical Control System is the software and software-related hardware that
is intended to command and control the VTUAV, the Army Tactical Unmanned
Aerial Vehicle, the Air Force RQ-1 Predator Medium Altitude Endurance
Vehicle, and future tactical and medium-endurance unmanned aerial vehicles.
The software will provide the operator of the unmanned aerial vehicle with the
necessary tools for computer-related communications; mission tasking,
planning, and execution; and data processing and dissemination.

The VTUAV contractor and the Tactical Control System contractor were
working together to integrate the two systems. The two contractors needed to
coordinate to ensure that they met the unique VTUAV software requirements.
Originally, the VTUAV contractor planned to develop some of the software
requirements, test them, and then develop additional requirements; however, the
Tactical Control System contractor assumed that the VTUAV contractor would
provide a complete software requirements package at the beginning of the
process. As a result, the time frames that the VTUAV contractor developed for
delivery of the first version of the Tactical Control System software differed
from that of the Tactical Control System contractor. The program office, the


                                    7
VTUAV contractor, and the Tactical Control System contractor developed a
plan to reschedule the software deliveries, but the effects of the plan and
whether it will alleviate the scheduling risk were unknown. The VTUAV
contractor planned to complete the software requirements package by late
September 2001, but the program office still considered the software integration
to be a high-risk area.

        Air Vehicle Weight. The VTUAV contractor could not determine what
the projected weight of the air vehicle would be at design maturity. The
prototype vehicle weighed 53.7 pounds more than predicted. If vehicle weight
reduction measures are not successful, the air vehicle weight may surpass the
not-to-exceed-zero fuel weight established by the program office. As a result,
air vehicle performance could be degraded, program cost could increase, and
further schedule delays could occur.

        Data Link Control Processor Software Development. The data link
control processor allows the ground control station to communicate to the air
vehicle. The data link control processor receives data from the ground control
station’s Tactical Control System, and then processes and transmits the data to
the air vehicle. In the same manner, the data link control processor receives
data from the air vehicle, and then processes and transmits the data to the
Tactical Control System for dissemination. The data link control processor
software contains the ability to interface the Tactical Control System with the air
vehicle. The late development of VTUAV software requirements package and
design data, however, has also delayed the development of the data link control
processor software. Also, the contractor’s integration of the ground control
station software at multiple sites caused a slower than expected response time
for modifications. As a result, the software for the data link control processor
will not be developed within established time frames, which may cause a delay
in program schedule and increase program costs.

        Vehicle Management Computer’s Software Development. The
vehicle management computer oversees air vehicle operations. The late
development of the VTUAV software requirements, the late deliveries of
laboratory and flight hardware, and the evolution of requirements throughout the
VTUAV development process have delayed the development of the vehicle
management computer’s software. The inability to develop the software within
the established time frames could delay the program schedule and increase
program costs.

Effects of Schedule-Related Risk. Three of the four high-risk areas may affect
the program schedule. A comparison of the initial program timeline in the
VTUAV acquisition strategy and the September 2001 timeline shows the effects
of the schedule delays on future program milestones and testing plans.

In the following chart, the triangles represent the original estimates in the
VTUAV acquisition strategy and the diamonds represent the program manager’s
estimates as of September 2001.




                                     8
                    Fiscal Year                 1999             2000           2001             2002              2003           2004           2005
                      Quarter               1   2 3    4   1     2 3    4   1   2 3      4   1   2 3      4   1    2 3    4   1   2 3    4   1   2 3    4

       MAJOR MILESTONE EVENTS
                                                               MS II        CDR LRIP 1                  LRIP 2 MS III
           Milestone (MS) II Decision
                Contract Award
       Design
          System Requirements
          Review
          Integrated Baseline Review

          Programatic Design Review

          Critical Design Review (CDR)

       Informal Operational Test
       Developmental Test
       (now risk reduction on prototype)
          Developmental Flight Test

          Shipboard Test

          Maintenance Demo
       Low-Rate Initial Production (LRIP)
         Option 1
          Operational Testing
       Low-Rate Initial Production
         Option 2
       Milestone III Decision

       Production



       VTUAV Engineering and Manufacturing Development Schedule Delays

     Schedule slips occurred for nearly all critical events. The most significant
     schedule change occurred in the area of developmental flight tests.
     Developmental flight tests were originally scheduled for completion in the
     second quarter of FY 2002. The flight tests were delayed until the fourth
     quarter of FY 2002, because the production representative air vehicles—vehicles
     in their final configuration—will not be available as scheduled; however there
     was no corresponding delay in the delivery of the first low-rate initial
     production system. As a result, the test data from developmental flight tests will
     have little impact on the low-rate initial production system, which is scheduled
     for delivery in the third quarter of FY 2002.

Justification for Schedule-Driven Acquisition
     In January 1999, the Joint Requirements Oversight Council validated the
     VTUAV operational requirements document, which included an initial
     operational capability date of the fourth quarter of FY 2003. The VTUAV
     Program Manager accelerated the acquisition schedule to meet the initial
     operational capability date, which coincided with the replacement of the aging
     fixed-wing Pioneer. The two concerns that preclude the Navy from using the
     Pioneer beyond FY 2003 are the fielding of the Cooperative Engagement
     Capability, which is scheduled for fleet induction in FY 2005, and the limited
     availability of spare parts for the Pioneer. Recent upgrades to the Pioneer,
     however, have extended its useful life to FY 2007.




                                                                        9
            Cooperative Engagement Capability. The Cooperative Engagement
    Capability is a communication system that uses sensor and weapons data from
    existing systems. It filters and combines the data to create a single, common air
    defense tactical display, and distributes the information to all combat
    participants. The result is that all combat participants will have an air picture,
    based on all sensor data available, that will permit earlier detection and more
    consistent tracking of air contacts. The Cooperative Engagement Capability will
    operate using the C-band frequency, but because of extensive communication
    links needed to successfully implement the Cooperative Engagement Capability,
    the C-band frequency will not be available to handle other weapon system
    programs, like the Pioneer, that are not operating in the Cooperative
    Engagement Capability network. To remain a viable weapon system, therefore,
    the Pioneer must transition to a different radio frequency for operations or be
    replaced with another system that operates on a different radio frequency. To
    transition the Pioneer, the Navy would have to upgrade it, at a cost of
    $8 million, to include different data links and data link control processors. The
    Navy chose not to upgrade the Pioneer because the initial VTUAV operational
    capability date was scheduled before the Cooperative Engagement Capability
    was to be introduced to the fleet.

           Spare Parts. Spare parts are no longer being manufactured for
    operating the Pioneer ground control stations. Because the Navy does not plan
    to provide additional funding for upgrades of the Pioneer, the Navy was
    borrowing parts from decommissioned Pioneer ground control stations to keep
    the Pioneer systems functioning. The Pioneer Program Office believes that the
    remaining Pioneer systems can be maintained using the parts from
    decommissioned systems until the VTUAV is introduced in FY 2003.
    However, program office personnel stated that the spare parts inventory
    acquired from overseas markets is sufficient to maintain the Pioneer though
    FY 2004.

    Although the Navy had legitimate reasons for replacing the Pioneer, it had not
    demonstrated a need for a VTUAV initial operating capability date as early as
    the fourth quarter, FY 2003. The Cooperative Engagement Capability
    restriction will affect only sea-based operations of the Pioneer, and the Navy has
    no plans to deliver sea-based VTUAV systems until FY 2006. Accordingly, the
    Navy’s best interests would be served by extending the initial operating
    capability date to at least FY 2005 to reduce VTUAV program risks and allow
    time for the required technologies to mature before the Cooperative Engagement
    Capability is deployed. Additionally, the Navy should consider the effect of
    operating the Pioneer with a limited spare parts inventory against the effect of
    fielding a VTUAV system that may not be ready for fleet introduction.

Effect of Schedule Delays on Program Funding
    Schedule delays in the development of the VTUAV have already resulted in a
    request for additional program funding. In a July 6, 2001, letter to Congress,
    the Chief of Naval Operations provided a list of programs and requirements that
    require resources, in addition to those in the original DoD Amended Budget for
    FY 2002, to maintain force readiness without supplemental appropriations. The
    letter requested $12.4 billion in additional funding and listed the specific
    programs and requested dollar amounts for each. The VTUAV program was


                                        10
    identified as one of those programs. The Chief of Naval Operations requested
    an additional $11 million for the VTUAV program to complete software
    development and risk reduction testing because of an increased scope of work
    and associated schedule changes.

Conclusion
    The VTUAV Program Manager is proceeding with an acquisition strategy that
    includes high-risk areas, which may not be resolved before the scheduled
    production milestone decision. Those high-risk areas may require the program
    manager to add time and funds for research, development, test, and evaluation
    to the budget to complete the VTUAV system development. The program
    manager tailored the acquisition strategy to omit risk reduction efforts normally
    demonstrated before entering the engineering and manufacturing development
    phase without supporting evidence that VTUAV technologies were at acceptable
    technology readiness levels. Further, the Navy did not demonstrate the need to
    accelerate the VTUAV acquisition schedule to meet a fourth quarter, FY 2003,
    initial operational capability date because sea-based Pioneer operations will not
    be affected by the Cooperative Engagement Capability until FY 2005.
    Accordingly, the Navy’s best interests would be served by extending the
    VTUAV initial operational capability date until at least FY 2005 to reduce
    program risks and allow time for required technologies, including the Tactical
    Control System, to mature.

Recommendations
    A.1. We recommend that the Deputy Chief of Naval Operations (Warfare
    Requirements and Programs) submit to the Joint Requirements Oversight
    Council, for validation and approval, a change to the operational requirements
    document for the Vertical Take-off and Landing Tactical Unmanned Aerial
    Vehicle to accommodate an event-driven acquisition strategy to reduce program
    risks.

    A.2. We recommend that the Vertical Take-off and Landing Tactical
    Unmanned Aerial Vehicle Program Manager establish an event-driven
    acquisition strategy to reduce program risks.

Management Comments Required
    The Deputy Chief of Naval Operations (Warfare Requirements and Programs)
    and the Vertical Take-off and Landing Tactical Unmanned Aerial Vehicle
    Program Manager did not comment on a draft of this report. We request that
    the Deputy Chief of Naval Operations and the Program Manager comment on
    the final report.




                                       11
           B. Requirements Determination
           The Navy had not justified and documented the number of VTUAV that
           were stated as required because the Deputy Chief of Naval Operations
           (Resources, Warfare Requirements, and Assessments) had not performed
           a documented analysis to determine the quantities needed for peacetime
           or wartime operations and also had not considered the viability and cost-
           effectiveness of transferring, or cross-decking, VTUAV assets between
           deployed and nondeployed ships. As a result, until the Navy validates
           the procurement requirements, the Navy will not know whether it will be
           able to fully fund, through programming and budgeting, the VTUAV
           program in the Future Years Defense Program.

Requirement for VTUAV
    During 1998 and 1999, the Navy conducted technical demonstrations with
    vertical take-off and landing unmanned aerial vehicles, including shipboard
    demonstrations. As a result of the demonstrations, the Navy decided that the
    vertical take-off and landing capability was technically feasible to meet its
    mission needs. In November 1998, the Navy submitted its operational
    requirements document for a vertical takeoff and landing tactical unmanned
    aerial vehicle that was based on the:

       •   Joint Requirements Oversight Council’s validation of the mission need
           statement for a close range reconnaissance, surveillance, and target
           acquisition capability;

       •   Commandant of the Marine Corps’ approval of a mission need statement
           for a tactical vehicle reconnaissance and surveillance and target
           acquisition capability; and

       •   Chief of Naval Operations’ approval of the operational requirements
           document for the Vertical Take-off and Landing Integrated Platform for
           Extended Range Reconnaissance Unmanned Aerial Vehicle.

    In January 1999, the Joint Requirements Oversight Council validated the
    VTUAV operational requirements document. The VTUAV operational
    requirements document requires the VTUAV to provide Navy commanders with
    the near-real-time imagery and data that are required to support intelligence,
    surveillance, and reconnaissance requirements independent of, or in concert
    with, the use of manned aircraft or reliance on limited Joint Theater of National
    Assets. The operational requirements document also states that the VTUAV
    system will provide the Marine Corps commander with a means to enhance his
    situational awareness, assist in the engagement of threat forces, exercise
    command and control, and assess the results of ongoing operational activities.
    The Navy believes that the ability of VTUAV to rapidly deploy aboard and
    operate from all air capable ships will provide the flexibility required to meet
    the needs of tactical commanders at all levels. The operational requirements
    document specifies an initial requirement of 23 VTUAV systems, 12 for the
    Navy and 11 for the Marine Corps. Each Navy system includes three air
    vehicles with support equipment and mission payloads, one land-based and one


                                       12
    sea-based data link, one land-based and one sea-based ground control station,
    and two remote data terminals. The Marine Corps’ system requirement differed
    from the Navy’s in that it replaces the sea-based data link and ground control
    stations with an additional land-based data link and ground control station.

VTUAV Requirements Determination
    In January 1999, the Deputy Chief of Naval Operations (Warfare Requirements
    and Programs) stated that the VTUAV requirement was based on outfitting each
    of the Navy’s 12 Carrier Groups and the Marine Corps’ 11 Amphibious Ready
    Groups with a VTUAV system. (Appendix E discusses the composition and
    availability of the Carrier and Amphibious Groups that will use the VTUAV.)
    Subsequently, the Deputy Chief of Naval Operations stated that the VTUAV
    requirement was based on the constant deployment of one Carrier Group and
    one Amphibious Group on each U.S. coast and one Non-Carrier Group and one
    Marine Prepositioning Force. To obtain constant deployment, each Group
    would require three additional Groups for rotational purposes, including one in
    maintenance, one in work-up for deployment, and one in stand down, post
    deployment. The Marine Prepositioning Force would require only two
    additional Forces for rotational purposes. Those requirements are summarized
    in the following table.

      Table 1. VTUAV System Requirements Based on Rotational Deployment
                                                       Navy         Marine Corps
     Carrier and Amphibious Groups – East                4                 4
     Carrier and Amphibious Groups – West                4                 4
     Non-Carrier Battle Groups                           4                 0
     Marine Prepositioning Forces                        0                 3
          Total                                          12               11

    The rationale for the rotating deployment is not supported by the ship
    deployment options and schedules as described in the following section,
    Deployment Options. When asked for additional information, the Office of the
    Deputy Chief of Naval Operations was unable to provide documentation linking
    the numbers required to a calculation of actual peace and wartime operations
    and training and attrition requirements.

    Additionally, the Navy did not have documentation to show that the initial
    requirement calculation considered the total number of sea-based ground control
    stations that would be necessary to support the intended use of the VTUAV.
    The initial requirement calculation did not consider the ground control station
    capability for all air-capable surface combatants, amphibious assault and
    amphibious transport dock ships, and aircraft carriers.

            Air-Capable Ships. The VTUAV operational requirements document
    states that VTUAVs must operate from all air-capable ships. Personnel from
    the Office of the Deputy Chief of Naval Operations (Warfare Requirements and


                                       13
    Programs) defined air-capable ships as ships equipped to land an SH-60
    helicopter. Using that definition, the Navy will have 116 air-capable ships in its
    inventory of surface combatants from FY 2003 through FY 2010. Therefore,
    the VTUAV requirement should include, for each of those ships, some type of
    sea-based ground control station. The initial full rate production will outfit the
    Navy with 8 sea-based ground control stations for the surface combatants,
    leaving 108 surface combatants without a ground control station.

           Amphibious Assault and Amphibious Transport Dock Ships. The
    VTUAV concept of employment, June 1, 1999, states that a sea-based ground
    control station with an embedded Tactical Control System will be installed on all
    amphibious assault and amphibious transport dock ships. According to Navy
    publications, as of September 2001, the Navy had 12 amphibious assault ships
    and 11 amphibious transport dock ships in its inventory. The initial full rate
    production will outfit the 12 amphibious assault ships with sea-based ground
    control stations, leaving 11 amphibious transport dock ships without a ground
    control station.

            Aircraft Carriers. The concept of employment states that, although the
    Navy does not plan to operate the VTUAV from aircraft carriers, all deployable
    carriers will be equipped with a stand-alone tactical control capability. The
    Office of the Deputy Chief of Naval Operations (Warfare Requirements and
    Programs) stated that of 12 aircraft carriers, 1 carrier is continuously in
    training. Planned VTUAV production quantities will outfit none of the
    11 deployable aircraft carriers.

    The program office recognized the need for the additional 108 sea-based control
    stations for the surface combatants and 11 sea-based control stations for the
    deployable aircraft carriers in an Out-Year Plan but, because those requirements
    were not included in the initial program requirements, funds were not budgeted
    for them. Without considering the requirements for the additional sea-based
    control stations, the Navy is understating the number required to support the
    VTUAV mission. The total requirement to meet the needs as defined in the
    operational requirements document and the concept of employment should be a
    critical factor in future decisions on the VTUAV program. For example, the
    Vertical Take-off and Landing Integrated Platform for Extended Range
    Reconnaissance program was also supposed to perform relatively the same
    missions as the VTUAV. That program was canceled, in part, because the vast
    number of systems required to fulfill the intended purpose, as specified in its
    operational requirements document, would have made the program an
    Acquisition Category I program that required additional oversight.

Deployment Options
    The Navy will store VTUAV systems aboard ships to be used as needed to
    provide the group commanders with reconnaissance, surveillance, and target
    acquisition capabilities. When asked about the necessity of outfitting every
    Carrier and Amphibious Group with a particular weapons system, the Office of
    the Deputy Chief of Naval Operations (Plans, Policy, and Operation) stated that,
    in a process known as cross-decking, the Navy routinely transfers limited assets
    between deployed and nondeployed platforms to conserve resources.



                                        14
The Air Force has used the cross-decking concept for aircraft-mounted sensors
that are assigned to air wings. Specifically, the Low Altitude and Targeting
Infrared for Night program used cross-decking as an option in the early stages
of production when the number of assets was limited. As the number of assets
grew, the Air Force no longer needed to physically remove assets from one
platform to another. However, the Air Force still removes Low Altitude and
Targeting Infrared for Night assets from nondeployed platforms to create a pool
of assets for use on deployed platforms. In addition, the Air Force still cross-
decks the support equipment for those assets because it is very costly to outfit
every platform with support equipment. Similarly, the Air Force, for the
Tactical Airborne Reconnaissance Pad System, cross-decks assets from
nondeployed to deployed platforms. Cross-decking of assets does not affect the
readiness of the Air Force to perform its mission.

Peacetime Deployment and Wartime Contingencies. Naval Sea System
Command personnel stated that, during peacetime, three Carrier Groups are
routinely deployed. One Carrier Group is permanently stationed in Japan, and
the other two are deployed from the east and west coasts of the United States.
The Carrier Groups are deployed off the U.S. coasts in a three Carrier Group
rotation—6 months deployed, 6 months in maintenance and resupply, and
6 months in preparation for the next mission. The Amphibious Groups follow
the same deployment rotation as the Carrier Groups during peacetime.

The deployment rotation differs from the Carrier and Amphibious Group
rotation methodology that the Navy used as the rationale for the number of
VTUAV systems required. The peacetime deployment schedule follows.


                  Table 2. Peacetime Deployment Schedule

                                     Carrier Groups        Amphibious Groups

 Forward Deployed–Japan                     1                       1

 East Coast
   Forward deployed                         1                       1
   Maintenance and resupply                 1                       1
   Preparation for deployment               1                       1

 West Coast
  Forward deployed                          1                       1
  Maintenance and resupply                  1                       1
  Preparation for deployment                1                       1
       Total                                7                       7

In the event of two near-simultaneous major conflicts, the Navy plans to deploy
all available Carrier and Amphibious Groups; however, the requirement to outfit
every Carrier and Amphibious Group needs to be evaluated and validated.
Because the peacetime deployment requirements are limited for the Carrier and



                                   15
    Amphibious Groups, the Navy needs to determine the feasibility and cost-
    effectiveness of cross-decking VTUAV assets to enable the Navy to use
    available resources for other higher priority requirements. The need for the
    Navy to document an analysis of requirements is equally important in support of
    current mobilization efforts that provide for homeland defense.

Conclusion
    The Navy had not justified the number of Vertical Take-off and Landing
    Tactical Unmanned Aerial Vehicles that were stated as Navy and Marine Corps
    requirements because the Deputy Chief of Naval Operations (Warfare
    Requirements and Programs) had not documented an analysis of the
    requirements determination. Until the Navy validates the requirements through
    a documented analysis, the Navy will not know whether it will be able to fully
    fund, through programming and budgeting, the VTUAV program in the Future
    Years Defense Program.

Recommendation
    B. We recommend that the Deputy Chief of Naval Operations (Warfare
    Requirements and Programs) document an analysis to justify the number of
    Vertical Take-off and Landing Tactical Unmanned Aerial Vehicle systems
    required before the full-rate production decision scheduled for the second
    quarter of FY 2003. At a minimum, the justification should include the
    quantities and associated rationale for both peacetime and wartime scenarios,
    and assess the viability and cost-effectiveness of transferring, or cross-decking,
    Vertical Take-off and Landing Tactical Unmanned Aerial Vehicle assets
    between deployed and nondeployed ships.

Management Comments Required
    The Deputy Chief of Naval Operations (Warfare Requirements and Programs)
    did not comment on a draft of this report. We request that the Deputy Chief of
    Naval Operations comment on the final report.




                                        16
                    C. Program-Specific Exit Criteria
                    The VTUAV Program Manager proposed, and the Assistant Secretary of
                    the Navy (Research, Development and Acquisition) approved, exit
                    criteria that were based on minimum program accomplishments specified
                    for each acquisition phase rather than on program-specific
                    accomplishments. This condition occurred because the Assistant
                    Secretary of the Navy (Research, Development and Acquisition) did not
                    enforce the requirement that the VTUAV Program Manager propose
                    program-specific exit criteria for the full-rate production decision point
                    of the VTUAV acquisition program. As a result, the milestone decision
                    authority will not be able to use program-specific exit criteria in deciding
                    whether the VTUAV should progress within the engineering and
                    manufacturing development phase or continue to the production phase of
                    the acquisition process.

Exit Criteria Requirements
           The DoD included the requirement for establishing exit criteria as a
           management tool for use in the acquisition process in the February 23, 1991,
           version of DoD Instruction 5000.2, “Defense Acquisition Management Policies
           and Procedures.” The Instruction required that the milestone decision authority,
           at milestone decision points, establish program-specific results, or exit criteria,
           for the next phase(s) of the acquisition process for Defense acquisition
           programs. The Instruction defined exit criteria as critical results that must be
           attained during the next acquisition phase, and stated that failure to meet the exit
           criteria would halt the progress of a system towards the next milestone decision
           point. Furthermore, the Instruction required that exit criteria be program-
           specific accomplishments that did not repeat the minimum required
           accomplishments for each acquisition phase contained in the Instruction and in
           the acquisition program baseline.

           The Under Secretary of Defense for Acquisition and Technology3, incorporated
           the exit criteria requirements of DoD Instruction 5000.2 in DoD
           Regulation 5000.2-R, March 15, 1996. DoD Regulation 5000.2-R states that
           the exit criteria should be a level of demonstrated performance (for example, a
           level of engine thrust), the accomplishment of a process at a certain level of
           efficiency (for example, manufacturing yield) or a successful accomplishment of
           an event (for example, first flight), which shows that the program is progressing
           satisfactorily toward program goals. Program-specific exit criteria, such as the
           examples given, provide the milestone decision authority assistance in
           measuring whether the program is progressing satisfactorily toward the program
           goals.

           For major DoD acquisition programs, the Regulation requires that the milestone
           decision authority establish exit criteria for the program definition and risk
           reduction phase (Phase I) and the engineering manufacturing development phase
           (Phase II) of the acquisition process. The Regulation requires that the milestone

3
    Renamed the Under Secretary of Defense for Acquisition, Technology, and Logistics in October 1999.



                                                    17
    decision authority document the exit criteria in the acquisition decision
    memorandum before the program enters each acquisition phase. Change 4 to
    DoD Regulation 5000.2-R, May 11, 1999, added the requirement that the
    milestone decision authority establish exit criteria for the low-rate initial
    production decision at the engineering and manufacturing development decision
    point. The June 10, 2001, version of the DoD Regulation 5000.2-R
    incorporated the same exit criteria requirements.

    The requirements in the Regulation are to serve as a model for managing other
    than major Defense acquisition programs. Secretary of Navy
    Instruction 5000.2B, “Implementation of Mandatory Procedures for Major and
    Non-Major Defense Acquisition Programs and Major and Non-Major
    Information Technology Acquisition Programs,” December 6, 1996, extends the
    requirement for using exit criteria as defined in DoD Regulation 5000.2-R to all
    Navy weapon system programs.

VTUAV Exit Criteria
    In an Acquisition Decision Memorandum dated February 8, 2000, the Assistant
    Secretary of the Navy (Research, Development and Acquisition) approved the
    VTUAV program to proceed into the engineering and manufacturing
    development phase of the acquisition process. The Memorandum documented
    the approved exit criteria for low-rate initial production 1 and 2, and
    engineering and manufacturing development. The Navy defined the low-rate
    initial production 1 as the fielding of one Marine system and low-rate initial
    production 2 as the fielding of one Navy system. The VTUAV Program
    Manager proposed exit criteria for key decisions.

    Low-Rate Initial Production 1

           Completion of an operational assessment by the Naval Commander,
           Operational Test and Evaluation Force, which indicates that the VTUAV
           system is potentially operationally suitable and effective.

           Successful completion of a critical design review or similar activity.

    Low-Rate Initial Production 2

           Successful completion of Development Test-IIA flight testing.

    Engineering and Manufacturing Development

           Completion of operational evaluation with a finding by Naval
           Commander, Operational Test and Evaluation Force, that the VTUAV
           Program is operationally suitable and effective.

           Favorable production readiness review report.

    The exit criteria are not program specific; they simply restate critical
    requirements in DoD Regulation 5000.2-R that the milestone decision authority
    must consider at the milestone decision review. To illustrate, the Regulation
    requires that the program manager demonstrate, through testing, that the system


                                       18
    is potentially operationally effective and suitable before the low-rate production
    decision. Similarly, before the full-rate production decision, the Regulation
    requires that the program manager demonstrate that the system is operationally
    effective and suitable.

Conclusion
    Properly established exit criteria are tools that the milestone decision authority
    uses to verify that the program has met the level of performance required to
    progress to the next phase of the acquisition process. The exit criteria
    established by the VTUAV Program Office cannot be used in the manner
    intended by DoD Regulation because they were not program specific. In the
    absence of program-specific exit criteria for the VTUAV program, the Assistant
    Secretary of the Navy (Research, Development and Acquisition) will be unable
    to use exit criteria as a management tool at milestone decision reviews to
    determine whether the program is ready to progress to the next phase of the
    acquisition process.

Recommendation
    C. We recommend that the Assistant Secretary of the Navy (Research,
    Development and Acquisition) enforce the requirement that the Vertical Take-
    off and Landing Tactical Unmanned Aerial Vehicle Program Manager propose
    program-specific exit criteria for the full-rate production decision point of the
    Vertical Take-off and Landing Tactical Unmanned Aerial Vehicle acquisition
    program.

Management Comments Required
    The Assistant Secretary of the Navy (Research, Development and Acquisition)
    did not comment on a draft of this report. We request that the Assistant
    Secretary of the Navy (Research, Development and Acquisition) comment on
    the final report.




                                        19
Appendix A. Audit Process

Scope
    We conducted this program audit from February 2001 through September 2001,
    and reviewed documentation dated from January 1990 through August 2001.
    We used criteria in DoD Regulation 5000.2-R, “Mandatory Procedures for
    Major Defense Acquisition Programs (MDAPs) and Major Automated
    Information System (MAIS) Acquisition Programs,” Change 4, May 11, 1999,
    to perform the audit. To accomplish the audit objectives, we took the following
    steps:

        •   determined whether the users had adequately defined the system
            requirements;

        •   determined whether the program office had developed and implemented
            an acquisition plan, a risk management plan, and a test and evaluation
            plan;

        •   evaluated the Defense Contract Management Agency’s involvement in
            monitoring the contractor’s earned value management process;

        •   evaluated the program office’s management of contracts for the program;

        •   determined whether the program office had a fully developed,
            programmatic, environmental, safety, and health evaluation;

        •   assessed the program office’s implementation of the DoD environmental
            management process;

        •   determined whether the program office had prepared a life-cycle cost
            estimate for the program;

        •   evaluated program office use of integrated product teams; and

        •   reviewed management controls related to the audit objective.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Weapons System Acquisition high-risk area.

Methodology
    Audit Type and Standards. We performed this program audit in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.



                                       20
    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD and contractor locations. Further details are
    available upon request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Regulation 5000.2-R, June 10, 2001, acquisition managers are to use
    program cost, schedule, and performance parameters as control objectives to
    implement the requirements of DoD Directive 5010.38. Accordingly, we
    limited our review to management controls directly related to those elements of
    the VTUAV program. Because we did not identify a material weakness, we did
    not assess management’s self-evaluation.

    Adequacy of Management Controls. The Program Executive Office Cruise
    Missiles and Joint Unmanned Aerial Vehicles management controls were
    adequate in that we identified no material management control weakness.

Prior Coverage
    During the last 5 years, the General Accounting Office; the Inspector General,
    DoD; and the Naval Audit Service have not issued reports specifically
    addressing the VTUAV.




                                       21
Appendix B. Definitions of Technical Terms
   Acquisition Category. An acquisition category is an attribute of an acquisition
   program that determines the program’s level of review, decision authority, and
   procedures. The acquisition categories consist of I, major Defense acquisition
   programs; IA, major automated information systems; II, less than major
   systems; and III, all other acquisition programs. In addition, Acquisition
   Category I programs have two subcategories: Acquisition Category ID
   programs, where the milestone decision authority is the Under Secretary of
   Defense for Acquisition, Technology, and Logistics, and Acquisition Category
   IC programs, where the milestone decision authority is the Component
   Acquisition Executive.

   Acquisition Phase. An acquisition phase represents all the tasks and activities
   needed to bring a program to the next major milestone. Phases provide a logical
   means of progressively translating broadly stated mission needs into well-
   defined, system-specific requirements and, ultimately, into operationally
   effective, suitable, and survivable systems.

   Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the
   resource constraints imposed. It is the framework for planning, directing,
   contracting for, and managing a program. It provides a master schedule for
   research, development, test, production, fielding, modification, postproduction
   management, and other activities essential for program success. The acquisition
   strategy is the basis for formulating functional plans and strategies.

   Engineering and Manufacturing Development. Engineering and
   manufacturing development is the third phase of the acquisition process where
   the program office and its contractors fully develop, engineer, design, fabricate,
   test, and evaluate the systems and the principal items necessary for its support.

   Exit Criteria. Exit criteria are program-specific accomplishments that must be
   satisfactorily demonstrated before a program can progress further in the current
   acquisition phase or continue to the next acquisition phase.

   Full-Rate Production. Full-rate production is contracting for economic
   production quantities following stabilization of the system design and validation
   of the production process.

   Initial Operational Capability. The first attainment of the capability to employ
   effectively a weapon, item of equipment, or system of approved specific
   characteristics with the appropriate number, type, and mix of trained and
   equipped personnel necessary to operate, maintain, and support the system. It is
   normally defined in the operational requirements document.




                                       22
Joint Requirements Oversight Council. The Joint Requirements Oversight
Council is responsible to the Chairman of the Joint Chiefs of Staff for assessing
military requirements in support of the defense acquisition process. The Vice
Chairman of the Joint Chiefs of Staff chairs the Council and decides all matters
before the Council. The permanent members include the Vice Chiefs of the
U.S. Army, and U.S. Air Force, the Vice Chief of Naval Operations, and the
Assistant Commandant of the Marine Corps. The Council directly supports the
Defense Acquisition Board though the review, validation, and approval of key
cost, schedule, and performance parameters at the start of the acquisition
process, prior to each milestone review, or as requested by the Under Secretary
of Defense for Acquisition and Technology.

Low-Rate Initial Production. Low-rate initial production is the production of
a system in limited quantities to provide articles for additional operational test
and evaluation, to establish an initial production base, and to permit an orderly
increase in the production rate that will lead to full-rate production after
successful completion of operational testing.

Milestone. A milestone is the point where the milestone decision authority
decides whether to start or continue an acquisition program in the acquisition
process.

Milestone Decision Authority. A milestone decision authority is the individual
designated in accordance with criteria established by the Under Secretary of
Defense for Acquisition, Technology, and Logistics to approve entry of an
acquisition program into the next phase of the acquisition process.

Production Representative. A production representative system is a system in
its final configuration, conforming to production specifications and drawings.




                                    23
Appendix C. Acquisition Phases
        DoD Regulation 5000.2-R requires that acquisition strategies for all weapon
        systems be event driven, and identifies acquisition program phases and events to
        be accomplished for acquisition programs. The June 10, 2001, version of the
        Regulation changes the phase numbers to letters, but the requirement for an
        event-driven acquisition strategy and the events to be accomplished in each
        phase remain the same. Following are the acquisition phases as defined in the
        May 11, 1999, revision of the Regulation.1

        Phase 0, Concept Exploration. Phase 0 typically consists of competitive,
        parallel, short-term concept studies. The focus of those studies is to define and
        evaluate the feasibility of alternative concepts and to provide a basis for
        assessing the relative merits of those concepts at the next milestone decision
        point. An analysis of alternatives shall be used as appropriate to facilitate
        comparisons of alternative concepts. The most promising system concepts shall
        be defined in terms of initial, broad objectives for cost, schedule, performance,
        software requirements, opportunities for tradeoffs, overall acquisition strategy,
        and test and evaluation strategy.

        Phase I, Program Definition and Risk Reduction. During Phase I, the
        program shall become defined as one or more concepts, design approaches,
        and/or parallel technologies are pursued as warranted. Assessments of the
        advantages and disadvantages of alternative concepts shall be refined.
        Prototypes, demonstrations, and early operational assessments shall be
        considered and included as necessary to reduce risk so that technology,
        manufacturing, and support risks are well in hand before the next decision point.
        Cost drivers, life-cycle cost estimates, cost-performance trades, interoperability,
        and acquisition strategy alternatives shall be considered, including evolutionary
        and incremental software development.

        Phase II, Engineering and Manufacturing Development. The primary
        objectives of Phase II are to translate the most promising design approach into a
        stable, interoperable, producible, supportable, and cost-effective design; validate
        the manufacturing or production process; and demonstrate system capabilities
        through testing. Low-rate initial production occurs during the engineering and
        manufacturing development phase, as test results and design fixes or upgrades
        are incorporated. The objective of low-rate initial production is to produce the
        minimum quantity necessary to provide production configured or representative
        articles for operational tests; establish an initial production base for the system;
        and permit an orderly increase in the production rate for the system, sufficient
        to lead to full-rate production upon successful completion of operational testing.

        Phase III, Production, Fielding/Deployment, and Operational Support. The
        objectives of Phase III are to achieve an operational capability that satisfies
        mission needs. Deficiencies encountered in developmental test and evaluation
        and initial operational test and evaluation shall be resolved and fixes verified in

1
  The VTUAV program is subject to the May 11, 1999, version of DoD Regulation 5000.2-R because the
program entered the engineering and manufacturing stage of the acquisition process before the June 10,
2001, revision of the Regulation.



                                                 24
follow-on operational test and evaluation. During fielding/deployment and
throughout operational support, the potential for modifications to the
fielded/deployed system continues. The objectives of operational support are
the execution of a support program that meets the threshold values of all support
performance requirements and sustainment of them in the most cost-effective
manner throughout the system’s life cycle. A follow-on operational testing
program that assesses performance and quality, compatibility, and
interoperability, and identifies deficiencies shall be conducted, as appropriate.
The program shall also include the execution of operational support plans,
including the transition from contractor to organic support, if appropriate.




                                   25
Appendix D. Technology Readiness Levels


                Technology Readiness                                   Description
                       Level

             1. Basic principles observed Lowest level of technology readiness. Scientific
             and reported.                research begins to be translated into the
                                          technology’s basic properties.

             2. Technology concept               Invention begins. After the basic principles
             and/or application                  have been observed, practical applications can
             formulated                          be invented. The application is speculative and
                                                 there is no proof or detailed analysis to support
                                                 the assumption. Examples are still limited to
                                                 paper studies.

             3. Analytical and                   Active research and development is initiated.
             experimental critical               This includes analytical studies and laboratory
             function and/or                     studies to physically validate analytical
             characteristic proof of             predictions of separate elements of the
             concept.                            technology. Examples include components that
                                                 are not yet integrated.

             4. Component and/or                 Basic technological components are integrated
             breadboard1 validation in           to establish that the pieces will work together.
             laboratory environment.             This is relatively “low fidelity” compared to the
                                                 eventual system. Examples include integration
                                                 of “ad hoc” hardware in a laboratory.

             5. Component and/or                 Fidelity of breadboard technology increases
             breadboard validation in            significantly. The basic technological
             relevant environment.               components are integrated with reasonably
                                                 realistic supporting elements so that the
                                                 technology can be tested in a simulated
                                                 environment. Examples include “high fidelity”
                                                 laboratory integration of components.




1
    A board on which components are mounted for feasibility testing.



                                                     26
Technology Readiness                        Description
       Level

6. System/subsystem      Representative model or prototype system,
model or prototype       which is well beyond the breadboard tested for
demonstration in a       level 5, is tested in a relevant environment.
relevant environment.    Represents a major step up in a technology’s
                         demonstrated readiness. Examples include
                         testing a prototype in a high fidelity laboratory
                         environment or in a simulated operational
                         environment.

7. System prototype      Prototype near or at planned operational system.
demonstration in an      Represents a major step up from level 6,
operational              requiring the demonstration of an actual system
environment.             prototype in an operational environment.
                         Examples include testing the prototype in a test
                         bed aircraft.

8. Actual system         Technology has been proven to work in its final
completed and            form and under expected conditions. In almost
qualified through test   all cases, this level represents the end of true
and demonstration.       system development. Examples include
                         developmental test and evaluation of the system
                         in its intended weapon system to determine if it
                         meets design specifications.

9. Actual system         Actual application of the technology in its final
proven through           form and under mission conditions, such as
successful mission       those encountered in operational test and
operations.              evaluation. Examples include using the system
                         under operational mission conditions.




                             27
Appendix E. Carrier Groups and Amphibious
            Groups

Carrier Groups
        Composition of a Carrier Group. A Carrier Group is a highly balanced mix
        of ships and aircraft capable of conducting a variety of missions including strike
        operations, humanitarian assistance, sea control, and power projection. A
        Carrier Group generally consists of an aircraft carrier, two cruisers, three
        destroyers, two frigates, two submarines, and a supply ship.

        Availability. The Navy has 12 aircraft carriers that serve as the focal point of a
        Carrier Group. The maintenance schedule for the 12 aircraft carriers showed
        that, through FY 2008, 9 carriers, on average, are available for deployment at
        any given time. The remaining three aircraft carriers are out of service for
        refueling or incremental maintenance. Although two of the remaining three
        carriers can be deployed on short notice, this condition would occur only in an
        emergency scenario.

Amphibious Groups
        Composition of an Amphibious Group. An Amphibious Group is a naval
        expeditionary force consisting of an amphibious squadron normally composed of
        three ships with an embarked Marine Expeditionary Unit.1 Amphibious Groups
        are able to rapidly project forces ashore by land or sea. Forward-deployed
        Amphibious Groups provide the Commanders in Chief with a wide array of
        capabilities to include sustained maritime presence, rapid crisis response,
        humanitarian relief, peace support, and amphibious forcible entry.

        Availability. The Navy has 11 large deck, amphibious ships, each serving as
        the focal point of an Amphibious Group. The deployment schedule of the
        11 Amphibious Groups showed that for 2000 and 2001, only 3 Amphibious
        Groups, on average, were scheduled for deployment or were in transit at any
        given time. The other eight Amphibious Groups were used in training or were
        out of service for maintenance. Unlike the Carrier Groups, none of the
        Amphibious Group lead ships were scheduled for long maintenance cycles;
        therefore, all were available for deployment on short notice.




1
  An intervention force able to move quickly on short notice to wherever it is needed to accomplish
conventional or special operations.




                                                   28
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Chairman, Joint Requirements Oversight Council

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development and Acquisition)
  Program Executive Officer, Strike Weapons and Unmanned Aviation
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Deputy Chief of Naval Operations (Warfare Requirements and Programs)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          29
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         30
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector General, DoD, who contributed to the report are listed below.

     Mary L. Ugone
     John E. Meling
     Douglas P. Neville
     Amy L. Mathews
     Michael T. Burger
     Lidet K. Negash
     Jacqueline N. Pugh
